<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 115-97]
[From the U.S. Government Publishing Office]











                                                         S. Hrg. 115-97

                            BUSINESS MEETING

=======================================================================

                                MEETING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 22, 2017

                               __________

  Printed for the use of the Committee on Environment and Public Works



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









         Available via the World Wide Web: http://www.fdsys.gov
         
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-024 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
             
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED FIFTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
JOHN BOOZMAN, Arkansas               BERNARD SANDERS, Vermont
ROGER WICKER, Mississippi            SHELDON WHITEHOUSE, Rhode Island
DEB FISCHER, Nebraska                JEFF MERKLEY, Oregon
JERRY MORAN, Kansas                  KIRSTEN GILLIBRAND, New York
MIKE ROUNDS, South Dakota            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 TAMMY DUCKWORTH, Illinois
RICHARD SHELBY, Alabama              KAMALA HARRIS, California

              Richard M. Russell, Majority Staff Director
               Gabrielle Batkin, Minority Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 22, 2017
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    99

                              LEGISLATION

The text of the original bill, S. 512, the Nuclear Energy 
  Innovation and Modernization Act...............................     2
The text of the substitute amendment to S. 512 offered by 
  Senators Barrasso, Carper, Whitehouse, Inhofe, Booker, Fischer, 
  Capito, and Duckworth..........................................    50

 
                            BUSINESS MEETING

                              ----------                              


                       WEDNESDAY, MARCH 22, 2017

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:13 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, 
Fischer, Moran, Rounds, Ernst, Whitehouse, Merkley, Gillibrand, 
Booker, and Harris.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this business 
meeting to order.
    We are here to consider bipartisan legislation, S. 512, the 
Nuclear Energy Innovation and Modernization Act.
    [The text of the original bill follows:]
    
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       
    Senator Barrasso. I am going to call up the Barrasso-
Carper-Whitehouse-Inhofe-Booker-Fischer-Capito-Duckworth 
substitute that was circulated on Friday.
    We have agreed that this substitute shall be considered the 
original text for the purposes of amendments. However, no 
amendments have been filed. So Senator Carper and I will give 
our statements, then we will vote to report the substitute to 
the Senate when we have a quorum of 11, and we actually do have 
a quorum of 11 right now.
    After the vote I will recognize other members for any 
statements that they may wish to make.
    [The text of the substitute amendment to S. 512 offered by 
Senators Barrasso, Carper, Whitehouse, Inhofe, Booker, Fischer, 
Capito, and Duckworth follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Senator Barrasso. The Nuclear Innovation and Modernization 
Act is comprehensive. It is innovative. This is nuclear energy 
legislation that we have introduced along with Senators 
Whitehouse, Inhofe, Booker, Crapo, Fischer, Capito, Manchin, 
additionally, cosponsored by Ranking Member Carper, Senators 
Duckworth, Casey, Flake, Rounds.
    This bipartisan bill seeks to modernize the Nuclear 
Regulatory Commission by providing a flexible regulatory 
framework for licensing advanced nuclear reactors. At the same 
time, the bill maintains the ability of the Commission to 
assess a variety of technology and still meet its mission of 
ensuring safety and security.
    Our legislation will also update the Nuclear Regulatory 
Commission's fee recovery structure. This measure will bring 
increased transparency and accountability to the NRC, while 
improving the Commission's efficiency and timeliness.
    The bill also helps America's uranium producers who are 
essential to empowering this technology. Specifically, the bill 
addresses the Department of Energy's mismanagement of the 
public stockpile of excess uranium.
    Since 2009 the Department has repeatedly violated its own 
written policy and Federal law when managing the public's 
excess uranium. As a result, the Department of Energy has 
failed to obtain a fair return on this uranium for American 
taxpayers.
    The Department of Energy's mismanagement has also 
contributed to volatility in the uranium market and has led to 
job losses in States across the country, specifically in my 
home State of Wyoming.
    Our bipartisan legislation is going to enable the 
development of innovative reactors with bold new technologies, 
and we need to create an environment where entrepreneurs can 
flourish and create jobs here at home that will revolutionize 
and revitalize our nuclear energy sector. This legislation does 
all of that.
    I would like to now turn to Ranking Member Carper for his 
statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    The Chairman and I have enjoyed a brief, but I think very 
productive, positive relationship in the brief time that he has 
been our Chairman and I have served as the Ranking Member of 
this Committee. And while we may not agree on quite everything, 
my hope and my expectations are we are going to continue to do 
our best to come together where we can to make progress on any 
number of fronts.
    Today is a perfect example of working together and coming 
up on an issue that is important for both of us, for our 
States, for our country, and that is innovation in nuclear 
energy.
    For those of us on the Democratic side of the aisle in the 
Senate, there are few environmental challenges that are more 
important than what we believe to be the clear and damaging 
effect of climate change. Nuclear power is a prime example of 
how we can combat the negative impact of climate change on our 
environment and public health, while also providing economic 
opportunity for a lot of Americans.
    Done responsibly, nuclear power helps our nation and many 
others curb our reliance on other fuels--dirtier fuels in many 
instances--and we can help create the air pollution that 
damages our lungs and our climate.
    I think, Mr. Chairman, if I am not mistaken, about 20 
percent of the electricity in our country on a grid comes from 
nuclear, and about almost two-thirds of the electricity in our 
country that is carbon-free comes from nuclear, and that is 
nothing to sniff at.
    At the same time, we know that when the United States leads 
in nuclear energy, we create opportunities for good paying 
manufacturing jobs, good paying construction jobs, good paying 
operating jobs right here at home.
    Today, nuclear energy provides, as I said earlier, 20 
percent of our nation's energy and about two-thirds of our 
nation's carbon-free energy. If we are smart, we will replace 
our aging nuclear reactors with new technology, developed in 
this country, that is safer, produces less spent fuel, and is 
cheaper to operate and build, and that would be a good, good 
thing. If we seize this opportunity, the U.S. can be a leader 
in nuclear energy again, as we once were, reaping the economic 
benefits that flow from that leadership.
    I want to commend our Chairman and the cosponsors of this 
bill, especially Senators Whitehouse, Inhofe, Booker, and 
Crapo, for their work to reach a bipartisan agreement. It 
reminds me a little bit of TSCA, Mr. Chairman, and that is very 
encouraging. It is a good bill, one that has come quite a way 
since its introduction last year.
    As my colleagues have heard me say again and again, if it 
isn't perfect, make it better, which is why I have worked with 
the authors of the legislation in order to make several 
improvements to the underlying bill. These changes in the 
manager's amendment now provide more support for advanced 
nuclear reactors. Specifically, the changes are meant to ensure 
that all advanced nuclear technologies are treated the same 
when it comes to Federal funding. They incentivize private 
investments in research and development in advanced nuclear 
technology, which is critical for advanced nuclear.
    Finally, these changes will help us to assess advanced 
nuclear technology that has the potential to make nuclear fuel 
rods in current and future reactors safer than existing 
technology.
    Again, I want to thank our Chairman. I want to thank the 
bill's cosponsors, along with the members of our staffs for 
working together to make this collective effort even better, 
and this industry even safer and more productive.
    With these changes, I am happy to cosponsor the legislation 
and look forward to supporting the bill with all of you. I hope 
our colleagues will join me in supporting the manager's 
amendment and the legislation. This legislation finally ensures 
the U.S. is on the cutting edge of nuclear technology, 
technology that is safer, more cost competitive than our 
current fleet. I truly believe this legislation is a critical 
piece in addressing our climate and clean air goals.
    Thank you, Mr. Chairman. Let's rock and roll.
    Senator Barrasso. Thank you very much for all your hard 
work on this and making sure we get something that so many of 
us could cosponsor, and I appreciate your efforts and that of 
your staff.
    We do have a quorum present, so we will proceed to the 
vote.
    At this time, I would entertain a motion to adopt the 
Barrasso-Carper-Whitehouse-Inhofe-Booker-Fischer-Capito-
Duckworth substitute amendment to S. 512 and report S. 512, as 
amended, favorably to the Senate.
    Senator Whitehouse. So moved.
    Senator Barrasso. So moved and seconded.
    The Clerk will call the roll.
    The Clerk. Mr. Booker.
    Senator Booker. Aye.
    The Clerk. Mr. Boozman.
    Senator Barrasso. Aye by proxy.
    The Clerk. Mrs. Capito.
    Senator Capito. Aye.
    The Clerk. Mr. Cardin.
    Senator Carper. Yes by proxy.
    The Clerk. Mr. Carper.
    Senator Carper. Yes.
    The Clerk. Mrs. Duckworth.
    Senator Carper. Yes by proxy.
    The Clerk. Mrs. Ernst.
    Senator Ernst. Aye.
    The Clerk. Mrs. Fischer.
    Senator Fischer. Aye.
    The Clerk. Mrs. Gillibrand.
    Senator Gillibrand. No.
    The Clerk. Ms. Harris.
    Senator Harris. No.
    The Clerk. Mr. Inhofe.
    Senator Inhofe. Aye.
    The Clerk. Mr. Markey.
    Senator Carper. Yes by proxy.
    The Clerk. Mr. Merkley.
    Senator Carper. Yes by proxy.
    The Clerk. Mr. Moran.
    Senator Moran. Aye.
    The Clerk. Mr. Rounds.
    Senator Rounds. Aye.
    The Clerk. Mr. Sanders.
    Senator Carper. No by proxy.
    The Clerk. Mr. Shelby.
    Senator Barrasso. Aye by proxy.
    The Clerk. Mr. Sullivan.
    Senator Barrasso. Aye by proxy.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. Aye.
    The Clerk. Mr. Wicker.
    Senator Barrasso. Aye by proxy.
    The Clerk. Mr. Chairman.
    Senator Barrasso. Aye.
    The Clerk will report.
    The Clerk. Mr. Chairman, the yeas are 18, the nays are 3.
    Senator Barrasso. The legislation is reported favorably to 
the Senate. I ask unanimous consent the staff have authority to 
make technical and conforming changes to the measure approved 
today. Without objection.
    I also ask unanimous consent to enter into the record 27 
letters of support for the bill. Without objection.
    [The referenced information follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
     
    Senator Barrasso. At this time, I would like to ask any 
Senator who seeks recognition to please do so so they can make 
a statement concerning the bill.
    Senator Harris.
    Senator Harris. Thank you, Mr. Chairman.
    I want to thank in particular, you, Chairman, and Ranking 
Member Carper and Senators Inhofe, Whitehouse, and Booker for 
your leadership in this act. I understand that this legislation 
builds on last year's version to address a significant 
deficiency in clean energy that would follow as nuclear power 
plants begin to decommission in the next decade. And I 
appreciate the cooperative and bipartisan manner in which this 
Committee has engaged on this issue.
    From my perspective, this promising legislation has the 
potential to expand research and development opportunities for 
advanced nuclear energy by updating policies of the Nuclear 
Regulatory Commission to keep pace with the technology of this 
growing industry.
    However, real concerns from the public regarding the San 
Onofre Nuclear Generating Station in my home State of 
California still resonate with me. It has negatively affected 
the surrounding community and its residents in San Diego 
County. Therefore, it is my firm belief that our Committee 
should continue to carefully review the rapid progress of 
advanced nuclear energy projects to ensure their safety and 
reliability in guaranteeing safety to the general public.
    I would also like to continue working with my colleagues 
here to find a solution to any and all radioactive waste that 
is produced by nuclear energy power plants. Safely disposing of 
any radioactive material is a key priority of mine to ensure 
that we leave our environment pristine and unharmed for future 
generations in our country.
    After reviewing the manager's amendment package, I am 
encouraged at the progress our Committee has made to improve 
this bill, and agree with the amendments that my colleagues 
have offered. However, as the bill currently stands, I must 
vote against the Nuclear Energy Innovation and Modernization 
Act from moving passed our Committee and would like to work 
with all the sponsors closely to produce a comprehensive bill 
to further and fully address any uncertainties of advanced 
nuclear development.
    Again, I thank you, Chairman, and the members of our 
Committee for the bipartisan and important work that was done 
here.
    Senator Barrasso. Well, thank you very much for your 
comments. We look forward to continuing working with you. Thank 
you very much.
    Senator Inhofe.
    Senator Inhofe. Well, first of all, I am in shock here. 
This is really a big deal. This place ought to be mobbed right 
now. We have been trying to do this since 21 years ago, that I 
know of. Also, carrying on the things that we have done in this 
Committee that no one else was able to do, the TSCA bill, the 
transportation reauthorization bill, the chemical bill. These 
are all big things, and we crossed the line, got leaders on 
both sides. So I have no doubt.
    By the way, I have to get in the record this has nothing to 
do with global warming, nothing to do with climate change.
    [Laughter.]
    Senator Inhofe. But if that is what it takes to get you 
guys on board, I am all for it.
    [Laughter.]
    Senator Inhofe. So I have no reason to believe that this 
isn't going to fly through and we are going to be able to 
accomplish something really, really big.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you.
    Senator Carper. Maybe this is an unintended consequence. 
But a happy one.
    [Laughter.]
    Senator Whitehouse. Mr. Chairman.
    Senator Barrasso. Senator Whitehouse.
    Senator Whitehouse. First, let me thank the Ranking Member 
on our side for his leadership and the improvements that he has 
overseen to this bill, and let me thank my original coauthor on 
our side, Senator Booker, as well as the Democrats who have 
joined us in this, Senator Manchin, Senator Casey, and Senator 
Duckworth.
    Let me also thank the Chairman for his leadership and our 
former chairman for his leadership, Chairman Inhofe. No 
concessions are implied with respect to climate change on this, 
Mr. Chairman, but it will help. So we are going to work 
together.
    [Laughter.]
    Senator Whitehouse. Let me just also single out our 
original author, Senator Crapo, Mike Crapo, who has worked long 
and hard on this and I think deserves considerable credit for 
placing us where we are today.
    I would make two points very briefly. One is that carbon-
free power has value. We need to support it. We need to be a 
part of the innovation and leadership around the world on 
developing nuclear power. Our Russian and Chinese rivals are 
busily using our technology and trying to propagate it around 
the world as their innovation. In fact, it is ours, and we 
should continue to be leading innovators in this country.
    Second, and perhaps the thing that means the most to me in 
all of this, is that we presently have a nuclear waste 
stockpile that we have no idea what to do with. We have been at 
loggerheads and have done nothing about it for years and years 
and years and years and years now.
    There is a possibility, indeed, it is not the first 
generation of new technology, but it is the next generation of 
new technology. It is not operative yet, but it is in the 
planning phase, and it is in the discussion phase. It is 
technology that would allow our existing stockpile of nuclear 
waste to be turned into productive fuel without the 
proliferation problems of reprocessing.
    If we can get there, we will have done this country and the 
world a vital public service. One of the problems around here 
is that very often our accounting doesn't add up to reality. 
Right now, if we were a corporation, the liability to the 
United States of America of all that fossil fuel waste sitting 
around our nuclear plants with no plan for its disposal, with 
immense costs that will last for millennia, that would be a 
huge liability on the company's books, and the company, as a 
consequence, would be driven to try to find a solution.
    This bill puts us in the position to move toward that 
solution, perhaps not with the alacrity that the full force and 
effect of treating the nuclear waste as the liability it is for 
our country would justify or suggest, but at least it puts us 
in the right direction.
    And I will close by saying that Senator Inhofe and I have 
some very strong disagreements about certain things, but when 
one is working with Senator Inhofe together, I know of no 
stronger and better legislator in this building. So when we can 
work together, I celebrate it, and I look forward to very 
positive results.
    Thank you.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman. I want to thank 
the Ranking Member.
    Senator Whitehouse and I are working on the Clean Air and 
Nuclear Safety Subcommittee, so this is a big day for us. 
Certainly, we passed this in the 114th, but we have made it 
stronger and I think more viable as we move to hopefully moving 
this legislation to the floor in the 115th Congress.
    We have worked together. Obviously, the vote of 18 to 3 
indicates that an all of the above energy policy is something 
that we embrace, and nuclear power needs to be and should be a 
part of this with the innovations that come along.
    We are hearing daily, or maybe not daily, but monthly, of 
facilities that are having issues, financial issues, and are 
unable to keep functioning because of the expense and the age 
and relative age of the technology that exists now on our 
nuclear plants. So we want to make sure that with this Nuclear 
Energy Innovation and Modernization Act that we move forward to 
streamlining the approval to incenting new innovative 
technologies, smart technologies that are not just 
scientifically smart, but economically smart at the same time, 
maintaining that very crucial tenet that we all believe in. 
That is, the safety not only of those who work there, those who 
live in and around the facility, and those for the general 
public and really for the world, like Senator Whitehouse said. 
We need to be part of an innovative global community that is 
working to use nuclear power in the best possible way.
    So I congratulate you as the Chairman of the Committee for 
moving this forward, and I look forward to a positive vote.
    Thank you.
    Senator Barrasso. Thank you so much for all your help.
    Senator Booker.
    Senator Booker. I am grateful, Chairman, just to share a 
few words as well.
    I agree with Senator Inhofe, Chairman Emeritus Inhofe on 
his understanding that this is actually a really, really big 
moment. I have been very blessed to really learn on this 
Committee that even though there are deep rifts in thought on a 
lot of the subjects of EPW, there is actually tremendous 
potential for us to do bipartisan work. In fact, as a new 
legislator, 3 and a half years in this body, I really don't 
know of two better experiences that I have had than working on 
TSCA and working on this with my colleagues across the aisle.
    This is one that from early on in my Senate career got me 
very charged up, because I thought that our country was not 
leaning in to nuclear energy like we should have, that we were 
causing, I think, serious problems in terms of our ability to 
demonstrate American power, and I use that word for multiple 
purposes. If we are going to lead in this globe on issues of 
power and purpose, nuclear has got to be one of those areas, 
both for leading in industry as well as leading in national 
security. This is such a critical space, and that is why I feel 
such gratitude.
    On the energy side, I am really stunned that this is not a 
larger priority in our country. Not only the technology and the 
exciting technology of the future, which has made me a believer 
early in my Senate career, but just the mere fact right now 
that 20 percent of our power is being generated by nuclear 
energy. And for those of us, and I tread lightly on the 
friendship I have with Senator Inhofe, but 60 percent, 60 
percent of our non-carbon producing power is nuclear energy. 
And for these plants to be coming offline like they do gives a 
severe threat to the larger goals of the United States in terms 
of climate change.
    So there is an urgency here, and this is one time that I am 
proud of Congress, I am proud of the Senate and my colleagues 
and us coming together to meet a national urgency, step up and 
put together a piece of legislation that will absolutely make a 
difference.
    We have more work to do in this space, and I know you all 
understand that, but to come together to work across the aisle 
to create something as strong as this through a bipartisan 
effort is really a testimony to Congress. I am proud of the 
work we did in the last Congress, and I am really proud of this 
day as well. So I want to thank all those that were involved, 
and I am hoping that we can continue to build on this and this 
is actually momentum for great things to come.
    Senator Barrasso. Thank you very much for your comments, 
your support, all your hard work on this.
    Any other members like to make a statement?
    Senator Gillibrand, yes, please.
    Senator Gillibrand. Thank you, Mr. Chairman and Mr. Ranking 
Member for holding this hearing. I didn't vote in favor of the 
Nuclear Energy Innovation and Modernization Act because I would 
like to briefly address the concerns that I have with the bill 
and with the approach that we took.
    I appreciate the time that the sponsors put into this bill 
and the work that they have done with me and my staff to 
include sections on baffle bolts and emergency planning. That 
was something really important to our State, and I am pleased 
that those two provisions are part of the bill, but my concerns 
deal with other parts.
    As this Committee heard in testimony from Dr. Edwin Lyman 
of the Union of Concerned Scientists earlier this month, there 
are safety concerns with using the risk informed licensing for 
new and novel reactor designs because we can't quantify the 
risk of a terrorist attack or a natural disaster, which is the 
biggest concern we have for New York. Having Indian Point be so 
close to New York City, 8 million people, without any way to 
evacuate in the instance of a terrorist attack or a natural 
disaster is what drives these concerns.
    I am concerned that this leads to a reduction in the 
required emergency planning zone for new reactors and 
diminished activities to ensure the communities are prepared to 
respond to a radiological release. I believe that would be a 
serious mistake with potentially devastating consequences. I 
have worked for years trying to convince the NRC and the 
nuclear industry to do more for evacuations using the lessons 
learned from Fukushima and natural disasters that have occurred 
here in the U.S. The NRC should not move in the opposite 
direction.
    So just as a reminder, the industry and the NRC were wrong 
in their assumption about the extent of the degraded baffle 
bolts before they inspected Indian Point Unit 2 last year and 
found far more degraded bolts than expected. The NRC should be 
guided by the most conservative assumptions when it comes to 
safety and security of communities located in close proximity 
to nuclear plants, and not, as Dr. Lyman stated in his 
testimony 2 weeks ago, ``accept the results of paper studies on 
faith.''
    While new and novel technology may well prove to be safer 
than current reactor designs, we just have the responsibility 
to plan for the worst even as we hope for the best. I also 
believe that we must do more to address the decommissioning of 
current nuclear reactors and ensure the safe disposal of set 
nuclear fuel before we give the industry an expedited path for 
nuclear plants; and I say this because we are going to 
decommission Indian Point, but it is still a terror target. As 
long as the radioactive material stays there and doesn't have a 
plan for cleaning it up, it is still a very huge risk for New 
York City and the country.
    So I hope that I can work with all of you in the future to 
come up with some better planning for safety, for evacuations, 
and for decommissioning when you do have a nuclear site like 
ours that is a very high terrorist risk.
    Thank you.
    Senator Barrasso. Well, thank you for your comments, and 
thank you for helping strengthen the bill with the 
recommendations that you made on the other points that were 
incorporated. We appreciate your efforts and continue to look 
forward to working with you.
    Immediately following today's business meeting, as we are 
adjourning, members of the press are invited to join the 
Committee's cosponsors of this bill for media availability. We 
will do it right down here in front of the dais.
    No other concerns to be raised?
    Senator Whitehouse. Mr. Chairman, just very briefly. I hope 
that the Committee will take into sincere consideration the 
home State concerns of Senator Harris and Senator Gillibrand. 
It has been a longstanding tradition of Senate committees, and 
particularly this one, where there is a significant home State 
problem, to allow Senators to try to get some attention here in 
the Committee and try to help them find a resolution. It may 
not be an issue for everyone, but I think it is a matter of 
comity and an important tradition that we try to pay sincere 
attention to those home State concerns.
    Senator Barrasso. I appreciate the comments, and that is 
the intention, yes.
    Senator Carper.
    Senator Carper. I would certainly concur with what Senator 
Whitehouse has just said. I also want to say, again, 
legislation that makes this kind of progress doesn't happen 
just because of the folks sitting on this side of the dais. We 
have actually a lot of witnesses come in, people we have met 
with from industry, environmental community, and others. Our 
staffs have done excellent work, and I just want to say a 
special thank you to all of them. Thank you.
    Senator Barrasso. Well, thanks to everyone for all your 
hard work in making sure that this has gotten through this 
staff. The bill passed today 18 to 3, certainly a sign of 
incredible bipartisan effort.
    Thank you very much. The Committee is adjourned.
    [Whereupon, at 10:37 a.m. the Committee was adjourned.]

                                 [all]
</pre></body></html>
